           Amtrak
Office of Inspector General

               EVALUATION REPORT E-09-04
         LESSONS LEARNED: AN ANALYSIS OF THE
            ACELA AND SURFLINER PROGRAMS
                         July 21, 2009




This report will become available to the public on August 20, 2009.
INTRODUCTION
Amtrak is currently planning a number of near-term rolling stock procurements.
To insure current Amtrak decision-makers are knowledgeable of “lessons
learned” from past Amtrak procurements, the OIG decided to review the
experience of Amtrak’s two most recent major procurement programs (Acela and
Surfliner) and document the “lessons learned” from these programs.

The objective of this study was to review the history of these projects with key
individuals, identify project elements (both successful and unsuccessful) which
had major impacts on the results achieved, and summarize key “lessons learned”
into recommendations relevant to the forthcoming round of Amtrak procurements.

BACKGROUND
The Acela procurement involved the purchase of 20 high-speed trainsets, 15
high-horse power electric locomotives (HHP-8), three maintenance facilities and
a financing agreement at a cost of more than $750 million. Six additional HHP-8
units were purchased by the State of Maryland for MARC service utilizing an
option in the Amtrak contract. The contract also included a 10-year trainset
maintenance contract with an option for an additional 10 years. The trainsets
and locomotives were to operate on the Northeast Corridor between Washington
DC and Boston with the intent of reducing the trip time between New York City
and Boston to a congressionally mandated 3 hours.

The Surfliner procurement involved the purchase of 40 bi-level cars and 21 F-59
locomotives for service between Los Angeles and San Diego. An additional 25
cars were purchased by the State of California utilizing options in Amtrak’s
contract. These cars were based on an existing Alstom-built design and
essentially represented the next generation of the service-proven California-type
cars. As a next generation car, this procurement represented a low-risk option
for both Amtrak and Alstom. While there were some changes to the car design
(food service, trucks and door systems), the basic engineering was already
extant and many of the technical problems encountered during the original
California car procurement had been resolved. Similarly, the F-59 locomotive
was a mature design which presented low technical risk. The Surfliner project
was a negotiated procurement with Alstom for a total value of $99.5M. The F-
59s were manufactured by General Motors EMD at a cost of $46.0M.

The first Acela trainset for revenue service was delivered more than a year late
and had numerous technical problems while the Surfliner cars were delivered on
schedule, within budget, and with very few technical problems.




                                        2
METHODOLOGY
To help with this review, the OIG contracted with LTK Engineering Services
(LTK), a Philadelphia-based rail engineering firm. LTK had supported Amtrak
with the Acela procurement and therefore was familiar with many of the details of
the program. LTK and the OIG jointly developed a list of individuals who played
a significant role in the procurements. Then, a team consisting of one person
from LTK and one person from the OIG interviewed over a dozen of these key
individuals to capture the most significant “Lessons Learned” from the programs.
LTK documented the interviews and produced the final report (attached).


LIMITATIONS
The comments and recommendations contained in this report are developed
from the collective opinions and recollections of the individuals interviewed. They
are provided to help guide future procurements and provide advice for decision-
makers. No attempt was made to verify the comments or opinions expressed by
the interviewees and therefore this document should not be considered a
thorough, evidence-based, detailed analysis of the programs or used to support
any legal determination of fault or cause and effect. It is solely provided to
capture, in one document, the opinions of the individuals most knowledgeable of
these past procurements and therefore help future decision-makers in avoiding
the types of problems they encountered.


OIG RECOMMENDATION
1. Amtrak’s Chief Operating Officer and Chief Logistics Officer should
disseminate copies of this report to the key individuals involved in future rolling
stock procurements and insure that the comments and recommendations
contained in the attached report are reviewed and considered before any major
rolling stock acquisition in the future.




                                          3
                   LESSONS LEARNED -
   AN ANALYSIS OF THE ACELA AND SURFLINER PROGRAMS
                     FINAL REPORT
Executive Summary

Amtrak is currently planning a number of near-term rolling stock procurements and
therefore, the Amtrak OIG contracted with LTK to review the experience of its two most
recent procurement programs (Acela and Surfliner) and conduct a “lessons learned” study.
Both the Acela and Surfliner programs took place during the same approximate time
frame – 1993 through 2002.

The purpose of this study was to review the history of these projects with key individuals,
identify project elements (both successful and unsuccessful) which had major impacts on
the results achieved, and summarize key “lessons learned” into recommendations
relevant to the forthcoming round of Amtrak procurements.

The Acela procurement involved the purchase of 20 high-speed trainsets, 15 high-horse
power electric locomotives (HHP-8), three maintenance facilities and a financing
agreement at a cost of more than $750 million. Six additional HHP-8 units were
purchased by the State of Maryland for MARC service utilizing an option in the Amtrak
contract. The contract also included a 10-year trainset maintenance contract with an
option for an additional 10 years. The trainsets and locomotives were to operate on the
Northeast Corridor between Washington DC and Boston with the intent of reducing the
trip time between New York City and Boston to a congressionally mandated 3 hours.

The Bombardier/Alstom proposal offered the least mature technology of the three
proposers and a design which was untried under North American conditions. However,
the financing package offered by this group left Amtrak management little choice given
the railroad’s financial constraints but to accept the low cost proposal rather than one of
the other more technically-proven trainset designs. The trainset program was planned to
be the primary piece of Amtrak revenue stream for “financial self sufficiency” as
mandated by Congress.

The Surfliner procurement involved the purchase of 40 bi-level cars and 21 F-59
locomotives for service between Los Angeles and San Diego. An additional 25 cars were
purchased by the State of California utilizing options in Amtrak’s contract. These cars
were based on an existing Alstom-built design and essentially represented the next
generation of the service-proven California-type cars. As a next generation car, this
procurement represented a low-risk option for both Amtrak and Alstom. While there
were some changes to the car design (food service, trucks and door systems), the basic
engineering was already extant and many of the technical problems encountered during
the original California car procurement had been resolved. Similarly, the F-59
locomotive was a mature design which presented low technical risk. The Surfliner
project was a negotiated procurement with Alstom with a total value of $99.5M. The F-
59s were manufactures by General Motors EMD at a cost of $46.0M.


LTK Engineering Services                  1 of 24                             July 17, 2009
The Acela trainset for revenue service was delivered more than a year late and had
numerous technical problems while the Surfliner cars were delivered on schedule, within
budget and with very few technical problems. While the Acela program was a much
more complicated and challenging program than the Surfliner project, there are some
interesting comparisons:

                         Acela                           Surfliner
          Unproven designs and new            Existing designs and service-
          technology                          proven technology
          Interior change order               Very few change orders
          reconfigured the trainset
          shortly after the contract was
          signed, with major impacts to
          cost and schedule
          Aggressive schedule for a new       Reasonable schedule given the
          design having a high level of       level of technical risk present
          technical risk
          Aggressive contract terms and       Terms and conditions were
          conditions for a complex,           much less of an issue because
          multi-faceted procurement           the contract involved only
          covering vehicles, shops and        rolling stock based on existing
          management services.                designs

Summary Recommendations

      Executive management must have a clear vision what they want to buy. It is
       important to know what performance requirements and interior features are
       required to meet Amtrak’s market demand in order to have a successful
       procurement and control change orders.

      Educate management as to the types of rolling stock and technology available to
       impart a clear understanding of the strengths and weaknesses of each technical
       approach.

      Avoid a marriage of technologies which have been proven individually but never
       proven together. If possible buy an existing design or the next generation of an
       existing design. Application of new technologies or unproven technologies in the
       US environment and market can present high risks. If new technology is selected,
       insist on an extensive prototype test program before series production, so that
       technical problem can be discovered and corrected before production begins.

      Require all proposers to be prequalified before bidding on a future trainset
       procurement.




LTK Engineering Services                   2 of 24                              July 17, 2009
      Technical proposals should not be overly influenced by a financing package
       offered by a given proposer. If possible, Amtrak should arrange its own financing
       package separate from the carbuilder.

      Do not deal with a consortium. There should be one company with responsibility
       as the prime so Amtrak has a single point of contact in the event of technical or
       legal disputes.

      Establish program schedules which are reasonable and can be realistically
       achieved under real world conditions. Provide some degree of schedule cushion
       to accommodate the inevitable problems which must be addressed while the clock
       ticks.

      Negotiate Terms and Conditions which are fair and reasonable to both parties.
       Understand and equitably share risk, recognizing that there can be value in
       assigning designated risks to the party which is in best position to control them.




LTK Engineering Services                  3 of 24                             July 17, 2009
Introduction

Amtrak is currently planning a number of near-term rolling stock procurements. These
procurements will encompass a wide variety of vehicle types for service in several
different corridors. From an overall project management standpoint, these procurements
will be extremely complicated given the number of corridor-specific technical and
commercial requirements which must be incorporated and coordinated. These
requirements will include vehicle type (individual cars or trainsets), order quantities,
vehicle capacity, available technologies, passenger amenities, maintenance considerations,
delivery schedule, terms and conditions and financing, to name a few.

To assist Amtrak in planning for these future procurements, the OIG contracted with
LTK to review the experience of Amtrak’s two most recent rolling stock procurements
(Acela and Surfliner) and to conduct a “lessons learned” study. The purpose of this study
is to:

      Review the history of these projects with key personnel who participated in them,
       with emphasis on the technical, commercial and project management approaches
       employed;

      Identify elements of each project which were considered successful, and those
       which were considered less than satisfactory;

      Identify “lessons learned” from these experiences; and

      Summarize key “lessons learned” into recommendations relevant to the
       forthcoming round of Amtrak procurements.

Background Information – Acela and Surfliner Programs

Acela Program

The Acela procurement involved the purchase of 20 high-speed trainsets, 15 high-horse
power locomotives, three maintenance facilities and a trainset maintenance contract. The
Maryland Rail Commuter Service (MARC) also purchased six HHP locomotives using
options under the Amtrak contract. The Acela trainsets operate between Washington and
Boston. The rolling stock, while based on proven European practice, was essentially
newly designed to meet Amtrak NEC requirements. The contractor was a consortium of
Bombardier and Alstom. The program was managed from a dedicated Amtrak project
office in Philadelphia.

The Acela program began in the spring of 1993 with a request for Expressions of Interest
from potential carbuilders. By October 1993, six carbuilder teams had been pre-qualified
by Amtrak. Also during this time a preliminary specification was under development.
The specification was prepared using a “Task Team” approach with Amtrak stakeholders,



LTK Engineering Services                 4 of 24                           July 17, 2009
in conjunction with input from the six carbuilders and the FRA. The FRA input resulted
in a mandate for a Crash Energy Management (CEM) system and the requirement for a
second power car for additional crash protection. The Amtrak reorganization into SBUs
also had an impact. The new management required changes to the interior and food
service configuration. After a number of carbuilder meetings to discuss and review the
various changes to the trainset specification and RFP requirements, the RFP was finally
issued to three pre-qualified proposers on September 1, 1994. The three proposers were:

      ABB Traction, Inc., General Electric Transportation Systems and Raytheon;

      Bombardier/Alstom Consortium; and

      Siemens, AEG Transportation Systems, Inc., General Motors Corporation - EMD
       Division, Morrison Knudsen Trainset Group and Fiat Ferroviaria.

The proposers submitted their technical proposals on November 21, 1994 and their
commercial proposals on January 3, 1995. There then ensued an approximate year-long
clarification of technical details with the proposers, in conjunction with Amtrak’s internal
resolution of these major issues:

      The economic justification for the program;

      The number of trainsets to be ordered;

      The type of food service to be provided and the configuration of the food service
       car;

      Maintenance facility issues; and

      Fine-tuning of operational and commercial requirements for Management
       Services, Consist-at the-Block and Financing.

Best and final offer (BAFO) proposals were solicited in September 1995. After
evaluation of those proposals in accordance with pre-established selection criteria and
intensive negotiations with the two final carbuilder teams, Amtrak requested revisions to
the best and final offers in February 1996. Amtrak selected the Bombardier/Alstom
Consortium to supply Trainsets, Facilities, Financing and Management Services. The
contract was signed on May 1, 1996.

Shortly after the contract was signed, Amtrak issued a change order to revise the interior
design of the trainset. The change order provided for a schedule extension of two months
and added approximately $30 million to the contract amount.

In 1998 the FRA issued new track safety standards (CFR213 subpart G) for train speeds
over 125 mph. The introduction of new performance requirements almost two years after




LTK Engineering Services                  5 of 24                             July 17, 2009
the contract was signed and the lack of consistency by the FRA in interpreting these
requirements caused much confusion during the testing program.

There were also a number of technical challenges during the design and testing phases of
the program which caused the schedule to slip. The first pre-production trainset was
scheduled to be delivered for testing 34 months after Notice to Proceed (February 1999)
and the first production trainset was to be delivered in 40 months (August 1999). These
trainsets were actually delivered in March 1999 and October 2000, respectively. Because
of the impact of the interior change order and numerous subcontractor problems the
design and manufacturing of the trainset was delayed.

In an effort to mitigate this delay Amtrak agreed that the Pueblo trainset could begin
testing without a food service car and several of the coaches were only shells with no
interior appointments. Technical difficulties continued during testing at Pueblo. Because
the Consortium could not correct the trainset performance issues at Pueblo and the
pressure on Amtrak management to get the trains into revenue service testing was
suspended at the Pueblo test facility and moved to the NEC in an effort to accelerate the
testing program. Limited trainset revenue service started in December 2000 with two
trainsets. A more complete timeline of the program can be found in Attachment C.

Surfliner

The Surfliner procurement involved the purchase of 40 bi-level cars and 21 F-59
locomotives for service between Los Angeles and San Diego. These cars were based on
an existing Alstom-built design and were basically the next generation of the California
cars. Similarly, the F-59 locomotive was a pre-existing, service-proven design. The
contractor for the cars was Alstom while EMD manufactured the locomotives. The
program was managed from Amtrak’s Los Angeles office.

The initial Surfliner program was a procurement of 40 cars purchased by Amtrak. Then
the State of California exercised two options from the Amtrak contract for additional cars
– 10 cars for Northern California and 15 cars for Southern California. California also
purchased 6 F59 locomotives. There were three Surfliner bidders:

      Alstom
      Bombardier
      Talgo

General Electric and EMD were bidders on the locomotive contract.

The Surfliner specification was an Amtrak in-house project written primarily by G.
Brunner and D. Bruss. The equipment was ordered to replace the Amfleet and Horizon
cars used on the San Diegan. The cars were delivered to Amtrak in five-car consists
comprised of cab car (1), coaches (2), food service car (1) and first class car (1). The first
consist was delivered in May 2000 and the last in June 2002. Pueblo testing was
completed in May 2000. Inaugural service started in June.



LTK Engineering Services                   6 of 24                             July 17, 2009
Approach

The “Lessons Learned” task started with the identification of individuals who played a
key role in each program. LTK contacted as many of these individuals as possible to
arrange interviews.

A list of interview questions regarding each project was developed (see Attachment A)
and provided to the individuals as a guide in advance to give them the opportunity to
prepare and help recall some of the significant events during each program. Interested
individuals were interviewed and asked those questions from the list relevant to their
personal experiences on each project. Interviewees were encouraged to go beyond the
points addressed in Attachment A and discuss any program issue they thought was
significant.

The majority of the interviews were conducted in person. A few were conducted by
telephone.

Comments resulting from these interviews were documented for subsequent review and
analysis.

Comments from Interviews

Below is a consolidated summary of the comments received from those interviewed:

Acela Program

Business Conditions

      Combining financing and technical requirements in the same RFP complicated the
       evaluation process. Because of restricted funding the financing package
       dominated the selection process.

      The political mandate for Amtrak to improve its financial condition based on
       financial goals established by Congress and pressure from the FRA Administrator
       to have the trainsets begin revenue service during her term forced Amtrak
       management to begin trainset service before all the technical problems were
       resolved.

      Amtrak undertook an extensive effort to measure the needs of the marketplace
       and the potential impact on Amtrak’s revenue stream. However when the final
       decision on trainset configuration was made the market analysis appears to have
       been disregarded.




LTK Engineering Services                 7 of 24                           July 17, 2009
Technical Decisions

      The interior change order that resulted after Mr. Warrington’s trip to Spain made
       a difficult contract situation impossible. The two month schedule relief
       negotiated between the Consortium and Amtrak for the change order proved to be
       insufficient. Bombardier management underestimated the impact of such a major
       change order on the program.

      Most of the engineering man-hours were expended getting the documentation
       correct rather than developing the product. Bombardier felt that Amtrak’s project
       team was more interested processing paper than focusing on technical issues.

      Weight was a major concern of Bombardier before the contract was signed.
       Bombardier believed Amtrak and the FRA disregarded the Consortium’s warning
       that the power car and HHP locomotive were too heavy to meet the performance
       requirements.

      The EMI Limit Detector (ELD) was a device on the power cars to detect EMI
       from the power car that could potentially interfere with the wayside signal system.
       When EMI was detected, the device would shutdown the power car as a safety
       precaution. The ELD worked as designed and would shutdown the power car
       when the EMI level reached a prescribed level. However, after weeks of testing
       delays because of the ELD, it was determined that the EMI was not from the
       power car but from passing AEM7 locomotives and Amtrak’s traction power
       system. It was clear to Bombardier that Amtrak had no idea of the EMI
       environment on the NEC and that its locomotives and substations were a major
       source of the EMI.

      Because of the pressure to get the trainsets into revenue service Amtrak did not
       take full advantage of the Pueblo test center to resolve trainset technical
       performance problems through modeling and on track testing. The testing was
       terminated only after approximately 30,000 miles.

      The Consortium did not understand the characteristics of the NEC infrastructure
       and as a result were not prepared for the problems that occurred during the
       dynamic testing.

Schedule Requirements

      The interior change order was a major impact to the design and manufacturing
       schedule, even far greater than Bombardier management realized at the time.




LTK Engineering Services                 8 of 24                            July 17, 2009
      While schedule negotiations were intense Bombardier agreed to a 34 month
       delivery schedule for the first trainset. They knew the schedule was tight but
       possible if every thing went as planned. However, when Amtrak directed the
       implementation of the interior change order that made that contractual schedule
       “unattainable”.

      Delivering the second trainset to the NEC at 36 months could be achieved but it
       gave no opportunity to incorporate anything learned at Pueblo into the second
       trainset. As it turned out this approach led to an extensive series of modifications
       to the trainsets before revenue service could begin.

      The contractual schedule assumed no technical difficulty would be encountered.
       This was an unreasonable approach for a new and unproved design. In addition,
       the contractor had only limited ability to test the power cars at its manufacturing
       facility.

Testing

      The original schedule did not provide sufficient time to test the trainset which was
       necessary and important given the state of the new technology being employed.
       The implementation of new FRA Track Safety Standard (CFR213 part G and
       others) almost two years after the contract was signed with new wheel/ rail
       performance criteria causes further impact to the testing schedule.

      Pueblo testing was valuable for propulsion and braking issues but counter-
       productive for performance testing. The difference in the track conditions
       between Pueblo and the NEC made any information gathered at Pueblo almost
       useless as a benchmark for NEC performance.

      The Consortium’s power car and coach models, operating in conjunction with the
       VOCO train performance model was very unreliable in predicting and
       understanding train dynamic performance. The vehicle dynamics simulations
       were of little help in diagnosing the source(s) of problems experienced with ride
       quality, truck accelerations and wheel/rail forces.

      The FRA requirement of having adjacent tracks vacant and track work and other
       revenue trains in the testing zone during testing forced most of the trainset
       qualification testing to be done at night on the NEC and at times caused testing
       delays.


Food Service

      The original food service car had approximately 18 revenue seats. The interior
       Change Order removed those seats in favor of a European bistro configuration.




LTK Engineering Services                  9 of 24                             July 17, 2009
      The change to the Bistro car was the result of Amtrak management being
       influenced by the European (AVE) style layout after the contract was signed
       without the revenue impacts being properly evaluated.

Contract Requirements

      Even though the Contract was negotiated and the Consortium management agreed
       to the final language, the Consortium’s project management team believed the
       contract was very one-sided in Amtrak’s favor. The Consortium’s outside
       counsel recommended that they not sign the contract because it was so one-sided.
       This created a very strained relationship between the Consortium and Amtrak
       project management teams from the beginning.

Management Services Contract

      The Acela trainset handoff from the program office to operations and maintenance
       was not smooth. The Amtrak maintenance staff was not experienced and there
       was no integrated team to assume control of the maintenance, operation and
       ongoing engineering issues for the trainset.

      The HHP locomotives were not part of the Maintenance Agreement.

      While the training program could have been better, Amtrak did not take
       advantage of the training classes offered and many of the available classroom
       seats were not filled. In addition there was no requirement for follow-on training
       by the contractor and Amtrak trainers who were to do additional training were
       short of trainers and the program was never implemented.

      The Acela was not given any special consideration or priority by the Amtrak’s
       Transportation Department. It was treated like any other train on the NEC and not
       the revenue producer it has become.

      Having Amtrak responsible for the workforce discipline (hourly workers) created
       friction with the shop management (NECMSC). NECMSC had little or no
       control over the workforce.

      Amtrak did not manage the process for delivering trainsets to the maintenance
       facility according to its contractual obligations. Amtrak did not maintain records
       to measure compliance with the contract provisions.



Surfliner Program

Business Conditions




LTK Engineering Services                10 of 24                            July 17, 2009
      The Amtrak vehicles were financed through a third party leveraged lease (Phillip
       Morris Capital).

      The option cars were paid for by the State of California.

      Amtrak had a clear vision of what they wanted to purchase and understood the
       market.

Technical Decisions

      The Surfliner seats are very high maintenance (They are the same as the Acela
       seats).

      In general, there were no major technical issues with the program primarily
       because the Surfliners were the next generation of the California car also built by
       Alstom. While there were some HVAC problems they were addressed through
       the warranty program.

      The trucks were upgraded to be compatible with the Superliners and problems
       with the original California car door system was addressed on the Surfliner car.

Schedule Requirements

      The delivery schedule was of primary importance to the Amtrak management.

Testing

      The testing program was managed closely by Amtrak. This included the
       qualification testing of the various systems at the vendor’s plants as well as static
       testing after the systems were installed in the car. Because the Surfliners were
       very similar to the California car, many of the system qualification tests were
       waived.

Food Service

      Food service changes on the Surfliners did not appear to create a problem for
       Alstom since they were only incremental changes from the original California car.

Contract Requirements

      At the time Alstom had no major problems with the contract terms and conditions.
       However, current corporate policy will not allow them to accept some of the
       provisions in that past contract.




LTK Engineering Services                 11 of 24                              July 17, 2009
Recommendations for Forthcoming Rolling Stock Procurements

Business Conditions

      Education of executive staff as to the type of rolling stock available is extremely
       important. Management must have a clear vision what they want to buy. It is
       important to know what performance requirements and interior features are
       required to meet Amtrak’s market demand in order to have a successful
       procurement and control change orders.

      Conduct separate technical and commercial proposal evaluations so that the best
       technical proposal is not overly influenced by the financing package offered by a
       given proposer. While total cost is a very important consideration, the selection
       committee must evaluate the risks associated with accepting the low price and
       financing package if that proposal is for a less than mature technical design.
       Accepting the low price proposal in this case could increase the risk of many
       technical problems during implementation on revenue service.

      Require all proposers to be prequalified before bidding on future rolling stock
       procurements. One of the prequalification requirements should be that the
       prospective bidders must participate in a vehicle demonstration to show how their
       rolling stock will perform on Amtrak’s infrastructure.

      Amtrak should coordinate another round of equipment demonstrations for the
       next generation of Acela equipment.

      Evaluate trip time savings achievable from rolling stock changes vs.
       improvements to the infrastructure. This could be a by-product of an Amtrak
       infrastructure analysis.

Technical – All Rolling Stock Types

      Avoid a marriage of technologies that have not been proven together. If possible
       buy an existing design or the next generation of an existing design. New
       technology and/ or unproven technology in the US environment and market can
       be high risk. If it is decided to accept new technology an extensive prototype
       testing program at the Pueblo test facility is strongly recommended before series
       production is allowed to begin.

      Require the carbuilder to perform an operational characteristics analysis to ensure
       they understand the total environment of the NEC. This will force the carbuilder
       very early in the design process to immerse it engineers into the specific
       operational and physical characteristics of the railroad. This will also identify
       constraints on the NEC infrastructure allowing Amtrak the option to make
       changes or improvement to the infrastructure vs. buying a train to meet a system
       limitation at a single location.



LTK Engineering Services                 12 of 24                             July 17, 2009
      Amtrak must have a better understanding of the conditions existing in its
       infrastructure (signaling, clearances, geometry, traction power, catenary etc) on
       the NEC to avoid problems similar to that caused by the EMI Limit Detector. By
       doing its own operational characteristics analysis in advance of preparing a
       specification Amtrak can reduce the risks of technical and performance problems
       during the qualification testing program.

      Given the current cost of energy and trainset performance issues during Acela
       qualification testing Amtrak must insist on an aggressive but realistic weight
       control program for the rolling stock.

      Reducing trip time should be the goal of any new equipment procurement. While
       a higher top speed is very appealing from a marketing perspective, buying a
       trainset that can achieve higher curving speeds can do more to reduce trip time
       than a higher top speed.

      Trainset development requires extensive prototype testing before series
       production begins. An expanded endurance simulated revenue testing program of
       500,000 miles at Pueblo should be a requirement supported by on site
       representatives from the carbuilder and all major subsystem suppliers. Delay the
       start of serial production until prototype testing is complete so modifications
       made during testing can be incorporated into the series production units to reduce
       the number of technical problem and improve reliability during the start of
       revenue service.

      Use railcar and trainset dynamic modeling to the fullest extent possible and
       validate the model with actual performance during the Pueblo testing phase of the
       procurement.

      Provide for reliability, maintainability and availability requirements in the
       specification and a means to verify that the carbuilder has achieved those
       requirements. Amtrak needs to be focused on these requirements during design,
       as well as during the verification of these requirements.

      Provide for better training and manuals for the technical staff who will maintain
       the rolling stock. Concentrate on diagnostic and troubleshooting procedures and
       develop an understanding of the fault monitoring system. Use that information to
       manage vehicle maintenance. Make provisions for continuously updating training
       programs for current staff and new employees. Make annual training
       recertification a requirement.




LTK Engineering Services                13 of 24                            July 17, 2009
      Amtrak must commit to an R&D program to improve the performance of power
       car trucks and ride quality of the coach trucks before buying the next generation
       of trainsets for the NEC. To the extent possible, Amtrak should encourage truck
       performance that not only meets the FRA and APTA requirements but exceeds
       them where possible.

      The Amtrak and carbuilder project teams must have an experienced system
       integrator to manage the design development. Since so much of today’s
       equipment design is software driven the project team should also include an
       experienced software engineer to over see the development of the software in
       accordance with current IEEE requirements.

      If possible, create synergy with the California High Speed Rail group. Amtrak
       should be willing to share its experience with California as they embark on their
       project. Also consider a joint procurement or buy trainsets from option provisions
       within each others contract.

Commercial Issues

      Do not deal with a consortium. One company should be the prime so Amtrak has
       a single point of contact in the event of technical or legal disputes.

      A contract with more balanced terms and conditions will provide a better initial
       working relationship between Amtrak and the carbuilder. Successful delivery of a
       trainset should be the focus of the procurement and not collection of Liquidated
       Damages.

      Require an effective warranty program with regular reports of all technical
       problems and an open exchange of information.




LTK Engineering Services                14 of 24                            July 17, 2009
                                                                  Attachment A



                           Acela Interview List

                       Affiliation             Schedule          Status
David Carroll      Former Amtrak         6/20/08 in Charlotte   Complete
Frank Duschinsky   Former Bombardier     6/19/08 In Montreal    Complete
John Bennett       Amtrak                7/02/08 Washington     Complete
Drew Galloway      Amtrak                7/25/08 30th Street    Complete
Helmut Kolig       Former Amtrak         8/12/08 Maryland       Complete
Pete Cannito       Former Amtrak         7/10/08 in NY          Complete
Tom Devenny        LTK Engineering       6/05/08 30th Street    Complete
Mark Yachmetz      FRA                   7/09/08 Washington     Complete




                       Surfliner Interview List

                       Affiliation                Schedule       Status

Gary Echenrode     Amtrak                Telephone Interview    Complete
Dick Bruss         Amtrak                6/ 9/08 30th Street    Complete
Jack Wilson        Amtrak                6/26/08 Los Angles     Complete
Jerry Mescal       Amtrak                6/26/08 Los Angles     Complete
Chuck Wochele      Alstom                6/5/08 30th Street     Complete




LTK Engineering Services                15 of 24                           July 17, 2009
                                                            Attachment B
                Questions for Acela Lessons Learned Interviews
Business Case

   1. What was the underlying reason for buying Trainsets vs. cars and locomotives?

   2. Why did Amtrak select a non revenue Bistro car?

   3. Did the North End Electrification project impact the trainset program costs?

   4. How important was the financing package in the selection of the winning
   proposal?

   5. Was there a business model created that summarized projected operating costs
      against revenue?

   6. How would you suggest the procurement process be improved?

   7. What in the process went well and what didn’t?

Technical Issues – Amtrak Team

   1. What were some of the major technical problems and how comfortable were you
   with the agreed upon solutions? Were these problems cause by unclear requirements
   of the specification or the carbuilder not understanding or wanting to understand
   Amtrak concerns?

   2. Do you have any suggestions how to improve the procurement process?

   3. Did you find the Task Team approach helpful in the preparation of the Acela
   Specification?

   4. Can you address the quality of the training and manuals provided?

   5. What system or subsystem would you recommend that Amtrak focus on for future
   procurements?

Schedule Requirements

   1. Was the requirement to deliver the first preproduction trainset to Pueblo for
   testing in 34 months realistic? If no please explain why.

   2. A second preproduction trainset was required to be delivered to the NEC for
   testing in 36 months. Was this achievable?

   3. Was the rate of production of one to two trainsets a month achievable?



LTK Engineering Services                16 of 24                            July 17, 2009
   4. How did Amtrak issuance of change orders affect the ability of the vendor to meet
   the schedule?

   5. How was consideration of the Option Order for more cars considered and dealt
   with?

   6. How did Amtrak changing of the quantity of trainsets affect the schedule?

Testing

   1. What were some of the major issues with the testing program?

   2. What the master test plan comprehensive?

   3. Did the carbuilder have adequate staff to accomplish the required static and
   dynamic testing program?

   4. Did Amtrak have adequate staff to over see the testing program?

   5. Did the schedule allow enough time for testing the trainsets?

Food Service

   1. How did Amtrak arrive at its decision for a Bistro/ Cart style food service?

   2. Why was cart service abandoned?

   3. Why was the delivery bulk beverages discontinued and what was the economic
      argument?

   4. Was there an over all food service plan with projected costs and revenue the
      dictated the design of the food service?

Contract Requirements

   1. What elements of the contract provisions do you believe where the primary cost
   drivers? Can you explain?

   3. What were the performance measures that were put in place to measure
   compliance with the contract provisions?

   4. How were warranty provisions of the contract handled?

   5. What functionality was included in the contract and never utilized by Amtrak?

   6. What functionality was included in the contract and never delivered by the
   Consortium?

   7. What functionality was included in the contract and did not work after delivery?

LTK Engineering Services                17 of 24                            July 17, 2009
   8. Would you recommend changes to the warranty or Liquidated Damages
   provisions?

Maintenance Agreement

   1. The initial years of the trainset Maintenance Agreement did not run smoothly.
      What changes would you recommend to future agreements of this type?

   2. How did the existence of the maintenance agreement affect Amtrak ability to
      enforce warranty provisions?

   3. How did the Maintenance Agreement affect the ability of Amtrak to ensure
      compliance with Federal Regulations?

   4. What were the performance measures put in place to measure compliance with the
      contract provisions and did Amtrak use them to manage the contract?




LTK Engineering Services               18 of 24                           July 17, 2009
            Questions for Surfliner Lessons Learned Interviews
Business Case

   1. Was there a business model that directed the purchase of a bi-level design?

   2. Was there a financing package as part of the RFP package?

   3. Could the RFP have been structured in a way that could have produced a lower
      bid price?

Technical Issues

   1. What were some of the major technical problems and how comfortable were you
      with the agreed upon solutions? Were these problems cause by unclear
      requirements of the specification or the carbuilder not understanding or wanting
      to understand Amtrak concerns?

   2. Do you have any suggestions how to improve the procurement process?

   3. How clear were the technical discussions between the Carbuilder and Amtrak?
      Was the design review process productive?

   4. Can you address the quality of the training and manuals provided?

   5. What system or subsystem would you recommend that Amtrak focus on for future
      procurements?

   6. Were the Reliability and Maintainability requirements achievable?

Schedule Requirements

   1. Was the initial delivery schedule reasonable?

   2. What was the largest impediment to keeping the program on schedule?

Testing

   1. What were some of the major issues with the testing program?

   2. What the master test plan comprehensive?

   3. Did the carbuilder have adequate staff to accomplish the required static and
      dynamic testing program?

   4. Did Amtrak have adequate staff to over see the testing program?

   5. Did the schedule allow sufficient time for testing the various car types?


LTK Engineering Services                19 of 24                            July 17, 2009
Food Service

   1. How was the type of food service determined?

   2. Were there any unrealistic requirements to the food service concept?

Contract Requirements

   1. What elements of the contract provisions do you believe where the primary cost
      drivers? Can you explain?

   2. Would you recommend changes to the warranty or Liquidated Damages
      provisions?

   3. Would you recommend changes to any other Terms and Conditions?

   4. Could the milestone payments have been be restructured to provide a more
      equitable payment for funds?




LTK Engineering Services               20 of 24                              July 17, 2009
LTK Engineering Services   21 of 24   July 17, 2009
LTK Engineering Services   22 of 24   July 17, 2009
LTK Engineering Services   23 of 24   July 17, 2009
LTK Engineering Services   24 of 24   July 17, 2009
